19CA0563 Sayed v CDOC 04-02-2020
COLORADO COURT OF APPEALS

DATE FILED: April 2, 2020

Court of Appeals No. 19CA0563
El Paso County District Court No. 19CV3
Honorable Thomas K. Kane, Judge

Hazhar A. Sayed,
Plaintiff-Appellant,
v.
Dean Williams, Executive Director of the Department of Corrections,
Defendant-Appellee.

JUDGMENT AFFIRMED
Division I
Opinion by JUDGE DAILEY
Navarro and Gomez, JJ., concur
NOT PUBLISHED PURSUANT TO C.A.R. 35(e)
Announced April 2, 2020
Hazhar A. Sayed, Pro Se
Philip J. Weiser, Attorney General, Karen E. Lorenz, Assistant Attorney
General, Denver, Colorado, for Defendant-Appellee

UEJ

If l

In this action to compel access to sex offender treatment,

plaintiff, Hazhar A. Sayed, appeals the district court’s judgment
dismissing his complaint against defendant, Dean Williams
Executive Director of the Colorado Department of Corrections
(DOC).1 We affirm.
I.
12

Background

In 2006, Sayed was sentenced under the Colorado Sex

Offender Lifetime Supervision Act of 1998 (SOLSA), §§ 18-1.3-1001
to -1012, C.R.S. 2019, to a term of twenty-four years to life
imprisonment in the custody of the DOC.
13

In 2018, Sayed initiated the present action seeking injunctive

relief, nominal damages, punitive damages, and an award of costs
for violation^] of civil rights and statutory mandates.” In his
complaint, he alleged that the DOC had (1) failed to enroll him in
sex offender treatment as required by Colorado statute; (2) violated
his right to equal protection of the law; and (3) violated both the

1 Although Sayed originally sued Rick Raemisch, Dean Williams has
since replaced Raemisch as the Executive Director of the DOC , and
consequently, must be automatically substituted for Raemisch as a
party. See C.R.C.P. 43(c)(2).
1

Americans with Disabilities Act (ADA), 42 U.S.C. § 12101 (2018)
and the Rehabilitation Act, 29 U.S.C. § 794(a) (2018).
II 4

The DOC moved to dismiss Sayed’s complaint (1) under

C.R.C.P. 12(b)(1), for lack of subject matter jurisdiction; and (2)
under C.R.C.P. 12(b)(5), for failure to state a claim upon which relief
could be granted. The district court summarily granted the DOC’s
motion, stating only that “[t]he Motion to Dismiss is granted.”
15

Sayed now appeals.
II.

1 6

Analysis

In his opening brief, Sayed contends that the court erred in

dismissing his complaint under C.R.C.P. 12(b)(5).2 We perceive no
grounds for reversal.

2 To the extent that in his reply brief Sayed raised new arguments
or expanded on his original arguments, we do not consider them
See In re Marriage of Dean, 2017 COA 51, If 31 (“We do not consider
the arguments mother makes for the first time in her reply brief or
those that seek to expand upon the contentions she raised in her
opening brief.”).

2

A.

1i 7

Sayed’s Appeal Focuses on Dismissal Under C.R.C.P.
12(b)(5) and Ignores the Alternative C.R.C.P. 12(b)(1)
Ground for Dismissing the Case

In his opening brief, Sayed challenges only those parts of the

court’s order that encompass dismissal under C.R.C.P. 12(b)(5); he
does not independently challenge the alternative ground for which
dismissal was sought and presumably granted, i.e., lack of subject
matter jurisdiction under C.R.C.P. 12(b)(1).3
f8

It is incumbent on Sayed, as the appellant, to challenge on

appeal all stated reasons or grounds for a district court’s decision.
See IBC Denver II, LLC v. City of Wheat Ridge, 183 P.3d 714, 716-17
(Colo. App. 2008). Because Sayed failed to contest the lack of
subject matter jurisdiction ground for dismissal in his opening
brief, affirmance of the district court’s order is required. Id.

3 The closest Sayed comes to challenging the C.R.C.P. 12(b)(1)
ground for dismissal is his contention that the district court
improperly “converted Defendant’s Motion to Dismiss to a Motion
for Summary Judgment as it considered attachments to said.” He
did not, however, in his opening brief explain what attachments
were considered by the court, or to what those attachments related.
(The attachments were three grievances he filed with the DOC, the
DOC’s responses thereto, and an affidavit correcting a clerical error
in the date of one of the DOC’s responses — all of which pertained
only to that part of the DOC’s motion to dismiss for lack of subject
matter jurisdiction.)
3

9rvurv>nnp«; opio m.moi c

19

Even if Sayed could be said to have raised a challenge to

dismissal on that ground, the record and the law support the
district court’s ruling.
1 10

“Where parties are required to follow administrative

procedures, the courts do not have subject matter jurisdiction to
hear any dispute between them until they have exhausted those
remedies . . .

New Design Constr. Co. v. Hamon Contractors, Inc.,

215 P.3d 1172, 1178 (Colo. App. 2008); see also City & Cty. of
Denver v. United Air Lines, Inc., 8 P.3d 1206, 1212 (Colo. 2000) (“If
complete, adequate, and speedy administrative remedies are
available, a party must pursue these remedies before filing suit in
district court.”); Egle v. City & Cty. of Denver, 93 P.3d 609, 612
(Colo. App. 2004) (“When administrative remedies are provided by
statute or ordinance, the procedure outlined in the statute or
ordinance must be followed if the contested matter is within the
jurisdiction of the administrative authority.”).
1 11

Whether a party has exhausted available administrative

remedies, and, consequently, whether a district court has subject
matter jurisdiction over a particular dispute, are questions of law

4

onnyinonnoc oc-io «o

->

subject to de novo review. New Design Constr. Co., 215 P.3d at
1178.
1! 12

Pursuant to the Colorado Prison Litigation Reform Act

(CPLRA), §§ 13-17.5-101 to -108, C.R.S. 2019, inmates are required
to exhaust all available administrative remedies in a timely fashion
before bringing a civil action. § 13-17.5-102.3, C.R.S. 2019. To
properly exhaust remedies, an inmate must complete the
administrative review process with the applicable procedural rules
that are defined by the prison grievance process itself. See Jones v.
Bock, 549 U.S. 199, 200 (2007) (examining the requirement of
inmates to follow procedural rules under the federal Prison
Litigation Reform Act of 1995 (PLRA), 42 U.S.C. § 1997e(a) (2018));
see Glover v. State, 129 P.3d 1083, 1085 (Colo. App. 2005) (applying
the rules of the PLRA to the CPLRA because the CPLRA is
substantially similar to the PLRA).
1 13

The DOC’s grievance process consists of three levels of review.

DOC Admin. Reg. 850-04(1). “Offenders who wish to proceed to the
next step in the grievance process must submit their written
grievance within five calendar days of receiving the written response
to the previous step.” DOC Admin. Reg. 850-04(IV)(F)(l)(d).
5

I 14

Sayed attached three grievances and the DOC’s responses to

his complaint,4 asserting, simply, that he had “exhausted all
administrative remedies.”
1 15

However, the DOC pointed out that Sayed had not complied

with the DOC grievance process: his third grievance (the last step of
the process) was belatedly filed. Sayed was required to submit a
third grievance within five days of receiving the response to his
second grievance. The DOC’s response to the second grievance is
dated August 22, 2018; according to an affidavit attached to the
DOC’s reply to Sayed’s response to the motion to dismiss, the
response contained a clerical error, inasmuch as the date should
have been August 22, 2017. Measured by either date, Sayed’s
submission of his third grievance on October 31, 2018, was well
beyond the five-day period for continuing the grievance process.
1 16

Sayed did not dispute the untimeliness of his third grievance.

Because Sayed did not properly complete the grievance process, he
did not exhaust his administrative remedies. Consequently, the

4 These could be considered by the court without converting the
motion to dismiss into a motion for summary judgment. See Yadon
v. Lowry, 126 P.3d 332, 335-36 (Colo. App. 2005).
6

district court did not have subject matter jurisdiction over Sayed’s
claims and the complaint was properly dismissed under C.R.C.P.
12(b)(1).
B. Alternatively, Sayed’s Complaint
Was Properly Dismissed Under C.R.C.P. 12(b)(5)
If 17

Sayed contends that the district court erred in dismissing his

complaint on C.R.C.P. 12(b)(5) grounds (1) without issuing written
findings and (2) by misinterpreting or misapplying substantive law
(i.e., Colorado statutes, equal protection principles, the ADA, and
the Rehabilitation Act). We are not persuaded.
1.
1 18

No Written Findings Were Required

“Findings of fact and conclusions of law are unnecessaiy on

decisions on motions under Rule 12 or 56 or any other motion
except as provided in these rules or other law.” C.R.C.P. 52.
Because the court ‘dismissed plaintiffs’ complaint pursuant to
C.R.C.P. 12(b)(5) for failure to state a claim[,] ... it was not required
to make specific findings of fact and conclusions of law for the
record.” Henderson v. Romer, 910 P.2d 48, 54 (Colo. App. 1995),
affdsub nom. Henderson v. Gunther, 931 P.2d 1150 (Colo. 1997).

7

2.
1 19

Substantive Issues

We review de novo the district court’s ruling on a C.R.C.P.

12(b)(5) motion to dismiss for failure to state a claim upon which
relief can be granted. Denver Post Corp. v. Ritter, 255 P.3d 1083,
1088 (Colo. 2011).
t 20

A claim may be dismissed under C.R.C.P. 12(b)(5) if the

substantive law does not support it, W. Innovations, Inc. v. Sonitrol
Corp., 187 P.3d 1155, 1158 (Colo. App. 2008), or if the plaintiffs
factual allegations do not, as a matter of law, support a claim for
relief, Ritter, 255 P.3d at 1088.
a.
1 21

Colorado Statutory and Regulatory Law

On appeal, Sayed asserts that he is being denied his statutory

right to participate in sex offender treatment, see § 18-1.3-1004(3),
C.R.S. 2019 (“Each sex offender . . . shall be required as a part of
the sentence to undergo treatment to the extent appropriate
pursuant to section 16-11.7-105, C.R.S.”), within the period
prescribed by DOC regulations for receipt of such treatment. See
DOC Admin. Reg. 700-19(IV)(E) (offenders that are within four years
of their parole eligibility date are prioritized to receive treatment).

8

f 22

Sayed asserts that he is entitled to enroll in sex offender

treatment because, he says, he is within four years of his parole
eligibility date. He asserts he is within four years of his parole
eligibility date because his parole eligibility date is calculable under
section 17-22.5-403(1), C.R.S. 2019. That provision says that
individuals convicted of certain felonies are eligible for parole after
serving fifty percent of their sentence. Fifty percent of Sayed’s
minimum twenty-four-year term would thus be twelve years. If
measured from his 2006 sentencing date, Sayed would be eligible
for parole in 2018 and have priority under the DOC regulations for
receiving sex offender treatment.
If 23

The problem with Sayed’s analysis is that it is grounded in the

wrong statute.
124

Section 17-22.5-403(1) was enacted in 1990.5 It addresses

parole eligibility for offenders generally and provides, in pertinent
part, that persons sentenced for class 2-6 felonies “shall be eligible
for parole after such person has served fifty percent of the sentence

5 SeeCh. 120, sec. 19, § 17-22.5-403, 1990 Colo. Sess. Laws 947.

9

imposed upon such person, less any time authorized for earned
time granted.”
f 25

In contrast, section 18-1.3-1006(l)(a), C.R.S. 2019, enacted

eight years later in 1998, specifically addresses sex offender parole
and release from incarceration.6 It provides that “[o]n completion of
the minimum period of incarceration specified in a sex offender’s
indeterminate sentence, less any earned time credited . . . , the
parole board shall schedule a hearing to determine whether the sex
offender may be released on parole.”
f 26

Colorado law is well settled that section 18-1.3-1006(1) (a)

applies in determining the parole eligibility date of sex offenders like
Sayed who have received indeterminate sentences. See Vensor v.
People, 151 P.3d 1274, 1276 (Colo. 2007) (“On completion of the
minimum period of incarceration specified in the sex offender’s
indeterminate sentence, less any credits earned by him, [SOLSA]
assigns discretion to the parole board to release him . . . .”); People
v. Oglethorpe, 87 P.3d 129, 134 (Colo. App. 2003); People v. Strean,

6 The statute as originally enacted in 1998 was codified at section
16-13-806. It was relocated in 2002 to its present site. See Ch.
303, sec. 1, § 16-13-806, 1998 Colo. Sess. Laws 1282-84; Ch. 318,
sec. 2, § 18-1.3-1006, 2002 Colo. Sess. Laws 1438.
10

Or>nyi/>onr\oe nc<« o

74 P.3d 387, 393 (Colo. App. 2002); see also Firth v. Shoemaker,
496 F. App’x 778, 781 n.2 (10th Cir. 2012) (noting that inmate “was
eligible for a parole hearing when he completed his six-year
minimum sentence, less earned time” and citing section 18-1.31006(1) (a)).
f 27

Applying section 18-1.3-1006(l)(a), we conclude that Sayed

will not be parole eligible until he completes the minimum twentyfour-year term of his sentence (less any earned time credits he has
been awarded). Measured from his 2006 sentencing, he would be
eligible for parole in 2030, or earlier depending upon whether he
has received any earned time credits. Sayed will become prioritized
to enroll in sex offender treatment programs only four years before
he becomes eligible for parole. Regardless of the exact dates
involved, it is clear that, at this point, Sayed is not near the time
when he would be entitled to be “prioritized” for receipt of sex
offender treatment.
1 28

Consequently, Sayed has not stated a Colorado statutory

claim upon which relief can be granted.

11

b.
129

Equal Protection

Sayed contends that he stated an equal protection claim

inasmuch as he alleged that he is being denied sex offender
treatment because he is not a U.S. citizen and cannot sufficiently
read or write English.
If 30

The doctrine of equal protection provides that those who are

similarly situated must be similarly treated. U.S. Const, amend.
XIV; Colo. Const, art. II, § 25; People v. Black, 915 P.2d 1257, 1260
(Colo. 1996). Therefore, at a threshold level, Sayed must allege that
he was treated differently than others in a similar situation. Black,
915 P.2d at 1260. Without this allegation, Sayed’s complaint must
be dismissed for failure to state a claim upon which relief can be
granted.
If 31

In his complaint, Sayed alleged that he was similarly situated

to inmates who were currently within their eligibility period and
were enrolled in treatment programs. As the DOC argued in the
district court, Sayed did “not identify any other specific inmates, or
state how they were similarly situated to him, or state what more
favorable treatment they received.” Sayed’s assertion of a similar
situation is based on his incorrect analysis of parole eligibility
12

calculations, explained in Part II.B.2.a, above. Consequently, Sayed
is not similarly situated to those who are already in the treatment
programs because Sayed is not currently eligible for parole , nor is
he within four years of it.
132

Without more, Sayed’s complaint fails to allege any factual

circumstance supporting an equal protection claim.
c.
1 33

ADA and Rehabilitation Act Claims

Sayed claims he has been discriminated against because of his

alleged disabilities in violation of both the ADA and the
Rehabilitation Act.
34

The ADA and the Rehabilitation Act foster similar goals. To

state a claim under the ADA, a plaintiff must allege (1) he is a
qualified individual with a disability; (2) he was excluded from
participation in or denied the benefits of a public entity’s services,
programs, or activities; and (3) such exclusion, denial of benefits, or
discrimination was by reason of a disability. Robertson v. Las
Animas Cty. Sheriffs Dep’t, 500 F.3d 1185, 1193 (10th Cir. 2007).
To state a claim under the Rehabilitation Act, a plaintiff must allege
the same elements. See Cash v. Smith, 231 F.3d 1301, 1305 (11th
Cir. 2000).

13

1 35

Under either Act, Sayed must allege that he had a qualified

disability. Without this allegation, Sayed’s complaint must be
dismissed for failure to state a claim upon which relief can be
granted.
1! 36

As noted above, “a complaint must contain sufficient factual

matter, accepted as true, to ‘state a claim for relief that is plausible
on its face.’” Warne v. Hall, 2016 CO 50, 1 1 (quoting Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009)).
11 37

A claim has facial plausibility when its factual allegations

“raise a right to relief above the speculative level,” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007), by allowing a “court to draw
tbe reasonable inference that the defendant is liable for the
misconduct alleged,” Iqbal, 556 U.S. at 678. The plausibility
standard is not akin to a “probability requirement,” but it asks for
more than a sheer possibility that a defendant has acted
unlawfully. Ttvombly, 550 U.S. at 556. Where a complaint pleads
facts that are “merely consistent with” a defendant’s liability, it
“stops short of the line between possibility and plausibility of
entitle[ment] to relief.’” Id. at 557 (citation omitted).

14

2004020085 2512 18*1021 17

1[ 38

In deciding whether a plaintiff has set forth a “plausible”

claim, the court must accept, as true, the factual allegations in the
complaint. Iqbal, 556 U.S. at 678. That requirement, however, “is
inapplicable to legal conclusions” and “[t]hreadbare recitals of the
elements of a cause of action.” Id. In reviewing a complaint, then,
a court should disregard conclusoiy allegations and “assume the[]
veracity” of any “well-pleaded factual allegations” to “determine
whether they plausibly give rise to an entitlement to relief.” Id. at
679; see Pena v. Am. Family Mut. Ins. Co., 2018 COA 56, | 15
(“Although we view the factual allegations in the complaint as true
and in the light most favorable to the plaintiff, Sve are not required
to accept as true legal conclusions that are couched as factual
allegations[.]”’ (quoting Fry v. Lee, 2013 COA 100, f 17)) (citation
omitted).
f 39

In his complaint, Sayed alleged that he “has a learning

disability” as he is not a U.S. citizen and cannot properly read or
write English7 and that he “may also” have “physical learning

7 In a different case, a division of this court rejected Sayed’s
argument that a lack of proficiency in English qualifies as a
disability under the ADA or Rehabilitation Act. Sayed v. Colo. Dep’t

15

2004020085 2512 18-1021 18

disabilities, but to date there has been no diagnosis o [sic] attempt
to diagnose him concerning said[.]” Although he states in
conclusory terms that “he has been discriminated” against because
of his disabilities, he alleges no facts to support his claim in either
his complaint or his opening brief. For example, he does not allege
that he was told by DOC personnel that he was denied sex offender
treatment because of his alleged disabilities,
f 40

Because Sayed alleged no facts in support his federal

discrimination claims, the district court properly dismissed those
claims.
III.
1 41

Disposition

The judgment dismissing the complaint is affirmed.
JUDGE NAVARRO and JUDGE GOMEZ concur.

ofCorr., (Colo. App. No. 14CA0683, July 2, 2015); see Buck v.
725 N.W.2d 485, 489 (Mich. Ct. App
2006) (holding that English as a second language does not
constitute a learning disability under similarly worded
antidiscrimination statutes); see also Steward v. New Chrusler 415
F App’x 632 641 (6th Cir. 2011) (Michigan’s antidiscrimination
statutes substantially mirror’ the ADA, and claims under both
statutes are generally analyzed identically.”) (citation omitted)
16

DATE FILED: August 17, 202(

Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203
Certiorari to the Court of Appeals, 2019CA563
District Court, El Paso County, 2019CV03
Petitioner:

Supreme Court Case No:
2020SC315

Hazhar A. Sayed,
v.
Respondent:
Dean Williams.
ORDER OF COURT

Upon consideration of the Petition for Writ of Certiorari to the Colorado
Court of Appeals and after review of the record, briefs, and the judgment of said
Court of Appeals,
IT IS ORDERED that said Petition for Writ of Certiorari shall be, and the
same hereby is, DENIED.

BY THE COURT, EN BANC, AUGUST 17, 2020.

^PLAINTIFP^I
I
EXHIBIT
I

1^ J
2008190032 2462 1-14-1003 2

